OIG Investigative Reports,Miami, FL. October 02, 2014 - Fast Train Owner and Three Admissions Representatives arrested for Theft of Federal Student Aid
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
THE UNITED STATES ATTORNEY'S OFFICE
SOUTHERN DISTRICT OF FLORIDA
NEWS
Fast Train Owner and Three Admissions Representatives arrested for Theft of Federal Student Aid
FOR IMMEDIATE RELEASE
October 02, 2014
Wifredo A. Ferrer, United States Attorney for the Southern District of Florida, Yessyka Santana, Special Agent in Charge, Department of Education, Office of Inspector General (ED-OIG), and George L. Piro, Special Agent in Charge, Federal Bureau of Investigation (FBI), Miami Field Office, announce that Alejandro Amor, 56, of Coral Gables, Jose W. Gonzalez, 53, of Port Orange, Michael Grubbs, 37, of Jacksonville, and Anthony Mincey, 57, of Jacksonville, have been charged in a fifteen count indictment with conspiracy to steal government funds, in violation of Title 18, United States Code, Section 371, and theft of government funds, in violation of Title 18, United States Code, Section 641. If convicted, the defendants face up to five years in prison, three years of supervised release, a $250,000 fine, and restitution, on the conspiracy count, and up to ten years in prison, three years of supervised release, a $250,000 fine, and restitution on each substantive count. The case has been assigned to United States District Judge Joan A. Lenard.
Defendant Amor made his initial appearance before United States Magistrate Judge Chris M. McAliley. Defendant Gonzalez made his initial appearance before United States Magistrate Judge David A. Baker, in Orlando. Defendants Grubbs and Mincey made their initial appearances before United States Magistrate Judge Patricia D. Barksdale, in Jacksonville.
According to the indictment, from approximately August 2008 through May 2012, Alejandro Amor, the owner of a for-profit proprietary college called Fast Train, directed his admissions representatives, including Jose W. Gonzalez, Michael Grubbs, and Anthony Mincey, among others, to defraud the United States Department of Education, by recruiting students who were not eligible for federal student aid and falsifying student aid applications in order to obtain federal Pell Grants and Direct Loans. As a result of these fraudulent recruiting practices, Alejandro Amor, Jose W. Gonzalez, Michael Grubbs, Anthony Mincey, and others, caused Fast Train students to submit approximately 1300 fraudulent student aid applications, which yielded approximately $6.5 million in fraudulently obtained Pell Grant and Direct Loan funds.
Mr. Ferrer commended the investigative efforts of ED-OIG and the FBI. This case is being prosecuted by Assistant U.S. Attorney Amanda Perwin.
An indictment is only an accusation and a defendant is presumed innocent until proven guilty beyond a reasonable doubt.
A copy of this press release may be found on the website of the United States Attorney's Office for the Southern District of Florida at http://www.usdoj.gov/usao/fls. Related court documents and information may be found on the website of the District Court for the Southern District of Florida at http://www.flsd.uscourts.gov or on http://pacer.flsd.uscourts.gov.
Top
Printable view
Last Modified: 10/03/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
FERPA
Civil Rights
Data & Research
Education Statistics
Postsecondary Education Data
State Education Data
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
ED Offices
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov